HHS/OIG, Audit -"Review of Head Start Compensation at
Friends of Children of Mississippi, Inc.,"(A-04-04-03501)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Head Start Compensation at Friends of Children of Mississippi, Inc.," (A-04-04-03501)
December 6, 2004
Complete
Text of Report is available in PDF format (1.5 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Friends of Children of Mississippi, Inc. (Friends)
compensation practices for teachers and the top five key executives were reasonable and consistent with Federal requirements
and guidelines.  Friends’ compensation practices for teachers appeared reasonable and consistent with Federal
requirements when compared to other Head Start grantees in Mississippi as well as teachers employed by the State.  Also,
Friends allocated cost of living allowances and used quality improvement funds consistent with Administration for Children
and Families program instructions.  However, compensation practices for executives needed improvement in that Friends’ could
not demonstrate that their compensation practices for executives met Federal requirements.  Also, Friends did not
comply with the OMB Circular A-122 when allocating executive compensation charges to Head Start and other programs.  We
also identified two aspects of Friends’ financial operations that needed improvement.  Friends generally agreed
with our findings, except our finding regarding compensation practices for executives.